Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




      YOUTH USE OF CIGARS

      Patterns of Use and Perceptions of Risk




                         JUNE GIBBS BROWN
                          Inspector General

                             FEBRUARY 1999
                             OEI–06-98-00030
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Dallas regional office prepared this report under the direction of Chester B. Slaughter,
Regional Inspector General. Principal OEI staff included:

REGION VI                                                    HEADQUARTERS

Michelle Adams Ph.D., Project Leader
                Elise Stein MPH, Program Specialist
Jennifer Ring, Intern

Nancy Watts

Scott Whitaker, Intern

Lisa White


OTHER REGIONS

Meredith A Vey        Suzanne G. Johnson
Jennifer Caves        Dennis J. Tharp
Lauren McNulty        Thomas A. Purvis
Jeanne S. Cathell

    To obtain copies of this report, please call the Dallas Regional Office at 1-800-848-8960.
         Reports are also available on the World Wide Web at our home page address:
                                http://www.dhhs.gov/progorg/oei
                    EXECUTIVE SUMMARY


PURPOSE

To describe patterns of cigar use among teens in our focus groups and their peers, specifically
exploring the initiation, frequency, and variations of use, as well as the motivations and influences
to use. In addition, to ascertain their access to cigars and awareness of health risks associated
with cigar use.

BACKGROUND

This descriptive report highlights patterns of teen cigar use based on the results of focus group
discussions. Prior to our study, little information was known about teen cigar use aside from
prevalence data showing high teen cigar use. This study was requested by the Centers for Disease
Control and Prevention, Office on Smoking and Health, to explore the issues surrounding cigar
use by minors. It does not provide any prevalence information, but was conducted to gain insight
into the patterns and circumstances of teen cigar use. It also supports the goal of the President
and Secretary of Health and Human Services (HHS) to reduce minors’ tobacco use.

Using a modified focus group approach, 230 participants completed a self-administered survey
instrument that addressed tobacco in general, and more specifically patterns of cigar use. Based
on our research and the study issues, we developed and pretested a standardized protocol which
we used to direct our discussions with teens participating in our focus groups. The focus groups
gave us an opportunity to obtain in-depth information about teen cigar use. In all, we conducted
18 focus groups: thirteen with high school students, four with junior high students, and one with
college students. Focus group participants included a mix of cigar users and non-users from
schools across the country. Schools were selected to give us a mix of students with different
socioeconomic backgrounds from urban and suburban areas. The schools were located in ten
major metropolitan areas across all regions of the country. Because the information collected for
this study was exploratory in nature, it should only be used as a starting point for further study of
teen cigar use and should not be projected to all teens. Nevertheless, we feel the information
collected from teens in these focus groups can be very valuable in identifying further research
needs and developing plans to address them.

FINDINGS

Patterns of Use

Teens from our focus groups report widespread cigar use and experimentation among their
peers.

When reporting about their own use, high percentages of both male and female teens say they
have smoked a cigar, with the highest use reported in urban versus suburban areas. Fifty-four
percent (122 of 227) of teens surveyed in our focus groups say they have personally smoked a

                                          )))))))))))
                                               i
cigar sometime in their life, two-thirds (82 of 122) of these teens have done so in the past year,
and over one-third (43 of 122) have smoked a cigar in the past 30 days. Of the 82 past-year cigar
smokers, 60 percent (49 of 82) report smoking cigarettes, while 16 percent (13 of 82) report
having used spit tobacco products. Although most teens’ first exposure to tobacco is through
cigarettes, 22 percent (35 of 159) of our surveyed teens tried cigars first. More research is
needed to determine if cigars are attracting a new group of users who would otherwise have
avoided using tobacco products.

Cigar use appears to be increasing in popularity among teens, with 40 percent (66 of 165)
reporting increased use among their peers since last year. About half of suburban (39 of 80) and
urban teens (41 of 80) expect to be using cigars in the next five years.

Manufactured cigars, rather than premium cigars, are most commonly used by teens due to their
ease of purchase, low cost, sweetened flavors, and pleasant aromas.

Teens in our focus groups report they typically smoke cigars at parties, frequently while drinking
alcohol.

“Blunts” for Smoking Marijuana

Teens in our focus groups report their peers use cigars as “blunts” for smoking marijuana.

Teens report that many of their peers use cigars as blunts for smoking marijuana, especially in
urban schools. When blunting, the user cuts open or unrolls the cigar and replaces all or most of
the tobacco filler with marijuana or other substances. Based on our focus group discussions, teen
references to cigar smoking and/or blunting behavior are often difficult to differentiate. Although
teens were specifically shown the different types of cigars prior to taking our survey, many
(especially in urban schools) wanted us to clarify if we were talking about plain cigars or cigars
with marijuana in them. Teens report their peers smoke both regular cigars, as well as cigars used
as blunts for smoking marijuana.

Though common at parties on the weekends, urban teens report blunting often occurs everyday.
Cigars used as blunts for smoking marijuana are popular with teens because they reportedly result
in a better high, improve the flavor of marijuana, and burn more slowly than cigarette paper.

Images and Promotion

Though the media portrayals of cigar smoking are prevalent, exactly how they influence teens
remains unclear. However, teens in our focus groups can easily recall a wide assortment of
television shows, movies, and famous celebrities associated with cigar smoking.

Teens recall images of cigar smoking featured in popular sitcoms, cartoons, and movies. They
identified entertainment personalities and sports figures, such as Michael Jordan, as cigar smokers.




                                         )))))))))))
                                              ii
Additionally, they associate various rap/hip hop vocal artists with not only cigar smoking but
blunting as well.

Social Acceptability

Smoking cigars is more socially acceptable among teens and adults than smoking cigarettes or
using spit tobacco. In addition, teens report their peers are most influenced by other friends
using cigars, but say they, personally, are somewhat more influenced by the relaxing effect of
cigars.

Over half of the teens in our focus groups report having been with adults that have allowed teens
to smoke cigars.

Teens in our focus groups also frequently mentioned curiosity as an influence on why they and
their peers smoke cigars. Unlike cigarettes, the taste and aroma of cigars vary greatly, allowing
teens a number of opportunities to experiment with a wide assortment of cigars before deciding
whether or not cigars are for them.

Access and Availability

Over two-thirds of teens in our focus groups reported they know minors who were able to buy
cigars, usually because clerks failed to ask for their identification or to closely examine it.

The most common method used by teens to access cigars is to simply go buy them. Most teens
typically buy their cigars at gas stations or convenience stores, and many get cigars by having
older people or friends buy for them. Some stores facilitate easy access by placing cigars within
reach, making it possible for some teens to steal them.

Perceptions of Health Risks

Though teens in our focus groups appear generally aware of the adverse effects of tobacco use,
they tend to lack specific knowledge of the health risks of cigars. A majority of teens in our
focus groups think regular cigar smoking is addictive, but many are uncertain.

Nevertheless, most of our teens believe smoking cigars is bad for a person’s health and that the
potential harm increases with more frequent use. However, teens who have tried cigars rate their
adverse health effects lower than teens who have never smoked cigars.

CONCLUSIONS

A Research Agenda On Teen Cigar Use Is Needed

The findings of this report, however exploratory, provide important information about teen cigar
use. The information obtained through our focus groups leads to the conclusion that more
research is needed to better understand teen cigar use. Specifically, more research is needed on


                                         )))))))))))
                                              iii
the following aspects of teen cigar use: 1) types and brands of cigars used, along with specific
questions about using cigars to smoke marijuana; 2) extent of cigar use, including standardized
information exploring differences in cigar use by teens’ demographic characteristics; 3) patterns of
use, including information about unaltered cigars and blunts; 4) influences on use, including
asking why teens try and continue to smoke cigars and about the extent of cigar use among their
peers and closest friends; and 5) ease of purchase, magnitude of illegal cigar sales to minors and
the potential of enhanced enforcement efforts to curtail cigar sales to minors.

Action Steps to Discourage Cigar Use

In our companion report, Youth Use of Cigars: Federal, State Regulation and Enforcement
(OEI-06-98-00020), We recommend that the Department, under the leadership of the Assistant
Secretary for Health develop an action plan to address the public health risks posed by cigars,
particulary access by youth. As a first step, we recommend an initiative to inform the public
through a public awareness and educational effort appropriate for cigars. This effort could also
include pursuing a collaborative effort with the Federal Trade Commission and Congress to
initiate a Surgeon General’s Warning Label for cigars. As a second step, the Department should
address the need for additional research on cigars including patterns and prevalence of use, youth
access and ease of purchase, health effects, addictive potential, use of cigars to smoke marijuana,
and an assessment of the adequacy of the Department’s data collection and survey capacity for
monitoring cigar use trends.




                                         )))))))))))
                                              iv
                              TABLE OF CONTENTS



EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


     Patterns of Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


     “Blunts” for Smoking Marijuana . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9 


     Images and Promotion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


     Social Acceptability . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


     Access and Availability . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


     Perceptions of Health Risks . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


CONCLUSIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24


ENDNOTES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26


APPENDIX


A: Focus Group Information . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30

                                   INTRODUCTION

PURPOSE

To describe patterns of cigar use among teens in our focus groups and their peers, specifically
exploring the initiation, frequency, and variations of use, as well as the motivations and influences
to use. In addition, to ascertain youth access to cigars, and their awareness of health risks
associated with cigar use.

BACKGROUND

This descriptive report highlights patterns of teen cigar use based on the results of focus group
discussions. Prior to our study, little information was known about teen cigar use aside from
prevalence data showing high rates of teen cigar use.

This study was requested by the Centers for Disease Control and Prevention, Office on Smoking
and Health, to explore the issues surrounding cigar use by minors. It also supports the goal of
the President and Secretary of Health and Human Services (HHS) to reduce minors’ tobacco use.

Companion Office of Inspector General study

This study is part of a larger effort by the OIG to better understand youth use of cigars. In
addition to this report, another OIG report describes the regulatory environment of cigars at the
national and State levels, as well as State tobacco control and enforcement activities regarding
minors’ access to cigars. That study involved reviews of existing Federal regulatory authority and
agency oversight responsibilities for cigars, along with systematic collection of information from
all 50 States and the District of Columbia. We found that cigars do not receive the same Federal
regulation and oversight as other tobacco products, such as cigarettes and spit tobacco.
Additionally, State enforcement of laws and regulations prohibiting the sale to, and use of cigars
by, minors is currently severely limited.

Evidence of Cigar Use Among Minors

In May 1997, the Centers for Disease Control and Prevention (CDC) first published data showing
24 percent of 14 to 19 year male and female teenagers and 30 percent of 17-18 year old teens
have smoked at least one cigar in the last year.1 Similar evidence was found in two separate State
surveys of youth. A Massachusetts study found that 28.1 percent of 9th to 12th grade students had
smoked a cigar in the past year and 14.5 percent had smoked at least one cigar in the past month.
Cigar use among males in grades 8 through 12 was also significantly higher than spit tobacco use.2
A recent California tobacco survey found that approximately 34 percent of males and 17 percent
of females aged 16 to 17 and 8 percent of males aged 12 to 13 had smoked at least one cigar in
1996.3

More alarming, are the number of high school students nationally that have used cigars in the past
month. Twenty-two percent of both male and female high school students combined were current

                                                  1

cigar users (used in the previous 30 days), according to CDC’s 1997 Youth Risk Behavior
Survey.4 Specifically, 31.2 percent of male students had used a cigar in the past month and 10.8
percent of female students. The number of current cigar users surpasses the number of spit
tobacco users among high school males and females (22.0 and 9.3 percent), although the attention
cigars have received nationally and at the State level has been far less. As a counterpoint to these
national and regional data, are the results of SAMHSA’s 1997 National Household Survey on
Drug Abuse which shows current past month cigar use by 12-17 year olds to be only five
percent.5

METHODOLOGY

We used self-administered survey instruments and focus groups to obtain information about teens’
patterns of cigar use and awareness of health risks. All information gathered was exploratory in
nature and can not be projected beyond our focus group participants.

Focus Group Participants

Focus group participants included a mix of cigar users and non-users from schools across the
country. Schools were selected to give us a mix of students with different socioeconomic
backgrounds from urban and suburban areas. The schools were located in ten major metropolitan
areas across all regions of the country. Of the eighteen focus groups conducted, thirteen were
with high school students, four with junior high students, and one with college students (College
student data was limited and therefore not used for any college specific data breakouts. In a few
cases, quotes from college students were added for flavor).

A total of 230 students completed our survey instrument. A well-balanced racial mixture emerged
from our overall participant group. Focus group participants include 48 percent (106 of 223)
White students, 33 percent (73 of 223) Black students, and 20 percent (44 of 223) other races,
such as Asian and Hispanic/Latino. A strong relationship exists between race and whether teens
attend an urban or suburban school. This relationship is expected based on the demographics of
our study population. Eighty-eight percent (64 of 73) of Black teens in our study are from urban
schools. Only nine Black students participating in our focus groups are from a school we classify
as suburban. The participant group also contains more female urban teens (67 percent, 73 of 109)
than male urban teens (33 percent, 36 of 109). Therefore, generalizations regarding our urban
teens are heavily influenced by the responses of Black female teens.

School officials were informed that participating students would be part of our national tobacco
study. They were told this study is important for the Department of Health and Human Services
to better understand young peoples’ use of tobacco products, in particular, cigars. They were
informed we were trying to determine how widespread teen cigar use is, which types of cigars
teens are using, the influences of marketing and the media on teens, and how much teens know
about the health risks of smoking cigars. School officials were asked to find an equal distribution
of students in 9th - 12th grade and to, if possible, get a mix of cigar users and non-users. Parental
permission slips were made available for schools requiring them.




                                                  2

Once students were selected to participate in our focus groups, we assured complete
confidentially to students. Participating students were told that we were interested in learning
more information about people that use tobacco, and in particular, cigars.

Two terms used throughout the report are “peers” and “teens.” The term “peers” refers to
‘people the participants know (about their age),’ while the term “teens” refers to students we
surveyed (which ranged in age from 11-19 years of age).6 Questions about teens access to
tobacco specifically referred to teens that were minors (< 18 years of age). See Appendix A for
more specific information about our focus group participants.

Focus Group Approach

Using a modified focus group approach, all participants completed a self-administered survey
instrument that addressed tobacco in general, and more specifically patterns of cigar use. Upon
completing the survey, both cigar users and non-users were asked about their own perceptions of
cigar use among people about their own age. The focus group format allowed for a more free-
flowing, in-depth discussion among participants about such things as the perceived health effects
of cigar smoking, a more in-depth analysis of the variations of cigar use, types of cigar products
used (e.g. - premium vs. cheaper cigars), and the influence of the media on teens.

Because the information collected for this study was exploratory in nature, it should only be used
as a starting point for further study of teen cigar use. Throughout the report we occasionally
reference national prevalence data to compare the representativeness of our data. However, the
data should not be projected to all teens, since it applies only to those participating in our focus
groups. Nevertheless, we feel the information collected from teens in these focus groups can be
very valuable in identifying, and planning to address, further research needs.

This inspection was conducted in accordance with the Quality Standards for Inspections issued
by the President's Council on Integrity and Efficiency.




                                                  3

                                     FINDINGS

PATTERNS OF USE

Peer Use

Teens From Our Focus Groups Report Widespread Cigar Use And Experimentation
Among Their Peers.

Given the popularity, social acceptability, and high usage of cigars among adults in recent years, it
should come as no surprise that teens are also using them. To encourage candor, participating
teens were first asked to assess the use of cigars by those they know about their age. Seventy-six
percent (171 of 225) of our high school and junior high teens know other teens about their age
who smoke cigars. They also report extensive experimentation with cigars among their
classmates. Of surveyed high school teens who knew peers who have smoked a cigar, 61 percent
(79 of 130) say half or more of their peers have ever smoked a cigar, along with 39 percent (10 of
26) of junior high teens. Experimentation with cigars is slightly higher among urban than
suburban high school teens, with 65 percent (53 of 82) of our urban teens reporting half or more
of their peers have smoked at least one cigar in their lifetime, compared to 54 percent (26 of 48)
of suburban teens.

Cigar use by teens in our focus groups is not limited to certain areas of the country, rather it is
reported by teens in all regions and among varied demographic groups. National prevalence data
also shows similar teen cigar use rates in all regions of the country.7

Teens in our focus groups indicate that many of their peers are current users by reporting half
or more of their peers have smoked a cigar in the past 30 days, with even higher use in urban
high schools.

The standard definition of a current cigar user is someone who has used cigars in the past 30 days.
Of teens we surveyed, 41 percent (53 of 131) report that a quarter or fewer of their peers have
smoked a cigar in the past 30 days, but another 35 percent (46 of 131) report that half or more
have smoked a cigar in the past 30 days.8 Differences did emerge based on the teen respondent’s
race, when they report on peer use. Fifty-one percent (31 of 61) of our Black high school
students report half or more of their peers are current cigar smokers compared to 22 percent (11
of 50) of White students. Based on our focus group results we found the highest cigar use in
urban schools with large Black populations. More research is necessary to better understand the
differences in current cigar use by race and among urban/suburban school teens.

Cigar use appears to be increasing in popularity among teens, with 40 percent reporting
increased use among their peers since last year.

Previously viewed as only a trend or fad, cigar use appears to be increasing in popularity in the
United States.9 However, the lack of uniform questions on prevalence surveys makes it difficult
to measure cigar use over time. Forty percent (66 of 165) of the teens we surveyed report an

                                          )))))))))))
                                               4
increase in cigar use among their peers since last year; another 35 percent (57 of 165) report use
has remained the same. Only nine percent (14 of 165) of teens say cigar use, among their peers,
has decreased in the past year.10

          “I’ve heard a lot of teenagers are smoking. I’ve seen a lot more cigar shops opening up.
          Like two opened up just around my neighborhood...they sell cigars and skateboards.”
        Suburban college student



Personal Use

When reporting about their own use, high percentages of both male and female teens say they
have smoked a cigar, with the highest use reported in urban versus suburban areas.

Although much of the emphasis in our focus groups was on teens’ perception of cigar use among
their peers, they were also surveyed about their own cigar consumption. Fifty-four percent (122
of 227) of teens surveyed in our focus groups say they have personally smoked a cigar sometime
in their life (see Table 1). Like cigarette use, both male and female teens admit they have smoked
a cigar, with 59 percent (58 of 99) of males having smoked a cigar compared to 49 percent (59 of
121) of females. However, urban teens surveyed were more likely [62 vs. 46 percent] to have
personally smoked a cigar, than their suburban counterparts.11

                              Table 1: Personal Cigar Use By Focus Group Participants

        Personal Cigar Use                    Number of Participants              Percent of Participants

 Ever Use (Lifetime Use)                            122 of 227                           54 percent

 Past Year Use                                       82 of 230                           36 percent

 Current Use (past 30 days)                          43 of 230                           19 percent



Of the teens in our focus groups who report ever smoking a cigar, 67 percent (82 of 122) have
done so in the past year, with many using cigars in conjunction with other tobacco products.

Of the 122 teens who have personally smoked a cigar in their lifetime, 67 percent (82 of 122) of
teens have done so in the past year. Some also report having used other tobacco products in
addition to smoking cigars in the past year. Of the 82 past-year cigar smokers, 60 percent (49 of
82) report smoking cigarettes, while 16 percent (13 of 82) report having used spit tobacco
products. This use of multiple tobacco products is important for researchers to track, especially
since the national prevalence data shows cigarette smokers were more than three times [54 vs. 14
percent] as likely as non-cigarette smokers to report having smoked a cigar during the previous
year.12 Of additional concern is the fact that some teens are beginning their tobacco use with
cigars and later adding cigarettes. More research is needed to determine if cigars are attracting a
new group of users that would not normally be associated with tobacco use.


                                                 )))))))))))
                                                      5
Over one-third of teens who reported having ever tried cigars, have smoked a cigar in the past
30 days.

Of the 122 teens surveyed who have personally tried a cigar in their lifetime, 35 percent (43 of
122) report having smoked a cigar in the past 30 days. These current cigar users varied only
slightly by gender, with 38 percent (22 of 58) of males in our focus groups reporting current use
compared with 34 percent of females (20 of 59). We found almost no differences in current cigar
use by race among our surveyed teens. Of the 43 current cigar users, 30 teens were also current
cigarette users and 6 were current spit tobacco users.

Although our survey methodology cannot be used to calculate nationally representative
prevalence data on teen cigar smoking, it can be used to gain insights and share information about
patterns of use among teens. Nonetheless, we were curious about how our data compares with
the national data on parallel points. The 30 day use rate was one of the few areas where such a
comparison could be made. Among the 230 high school and junior high school teens surveyed in
our focus groups, the rate of current cigar smokers (past 30 days) among male and female teens is
19 percent (43 of 230). The most recent national prevalence data for current cigar use of U.S.
male and female high school students combined is 22 percent for the Youth Risk Behavioral
Survey 13 and 5 percent for the National Household Survey on Drug Abuse (NHSDA).14 While
our date is clearly different from that found by the NHSDA, the similarity between our data and
the national data as seen in the YRBS and in data found in several regional studies is striking,
especially since our sample includes several junior high teens below the age of 14 years who
would have been excluded from the national prevalence survey. Our results indicate that younger
teens are smoking cigars, especially those attending urban schools.

Among those who currently use cigars, about half of suburban and urban teens expect to be
using cigars in the next five years.

Much debate is occurring about whether cigar smoking, in general, is here to stay or just another
passing fad. We were also curious if teens in our focus groups who had smoked a cigar in past
year expected to be smoking cigars in the next five years. Surprisingly, our surveyed teens are
almost evenly split about their future use, with 49 percent (39 of 80) of cigar smoking teens
expecting to be using cigars in five years and 51 percent (41 of 80) not expecting to be cigar
smokers in the future. Suburban teens [53 percent] were slightly more likely to anticipate future
cigar use compared to urban teens [46 percent].15 Although not all teens in our focus groups see
themselves using cigars in the future, it is clear that nearly half of teens surveyed view their cigar
use as more than a passing fad.

Teens Begin Experimenting With Cigars At Somewhat Older Ages (About 16 Years) Than
With Cigarettes And Most Often In The Presence Of Other Teens.

Although most teens’ first exposure to tobacco is through cigarettes, 22 percent (35 of 159) of
our surveyed teens tried cigars first. Teens in our focus groups experimented with cigarettes at
younger ages [mode = 12 years old] compared to those experimenting with cigars [mode = 16
years old], although a few had tried cigars as early as nine years old.16 Teens experimenting with


                                           )))))))))))
                                                6
cigars first is of concern because it highlights that some teens who had escaped cigarette smoking
at an earlier age, have succumbed to the tobacco temptation in the form of cigars when they were
older.

Teens in our focus groups who personally experimented with cigars did so most frequently at
parties or someone else’s home. However, some teens tried their first cigar at their own home or
at an outdoor hangout, such as a parking lot or park. Regardless of the setting, most
experimentation with cigars occurred in the company of other teens. Though youth resist
attributing it to peer pressure, cigar usage is popular within teen culture.

Half Of Teens in Our Focus Groups Found Their First Experience With Cigars To Be
Pleasurable, While Half Did Not.

Focus group participants expressed different reactions to their first experience smoking a cigar.
Half said they enjoyed smoking their first cigar, while half did not. Those enjoying their first cigar


  “My first cigar was a cheap Swisher Sweet, I              “The taste was terrible and the smoke was a
  enjoyed it because it tasted good. Plus, it was           lot stronger than smoking cigarettes.”
  something my best friend and I did together.”
                                                          Bad experience

Good experience




liked the taste, said it relieved stress, and/or they found it relaxing. However, other teens found
their first cigar had a bad taste, was gross or nasty, and/or was too strong or irritating for them.
Not surprising, of the teens who are current cigar smokers (past 30 days use) 86 percent (36 of
42) said they enjoyed their first cigar, while only 14 percent did not (6 of 42).

Manufactured Cigars, Rather Than Premium Cigars, Are Most Commonly Used By Teens
Due To Their Ease of Purchase, Low Cost, Sweetened Flavors, And Pleasant Aromas.

The majority of teens smoke cheaper,

manufactured cigars. These cigars are usually       “Kids won’t spend $20.00 on a cigar, they’ll spend

                                                    $2.00 on five.”
sold in packages of five at grocery stores or
gas stations. Teens report a number of types      Teen comment about a cigar’s price.

of cigars are smoked by their peers, with 59

percent (98 of 167) reporting their peers smoke cigarillos or pipe tobacco cigars, 50 percent (84

of 167) reporting they smoke regular manufactured cigars, 16 percent (26 of 167) reporting they

smoke little cigars, and only 12 percent (20 of 167) reporting their peers smoke premium cigars.17

Urban high school teens report wider use of cigarillos and pipe tobacco cigars [72 percent]

compared to suburban high school teens [48 percent].18 More suburban high school teens [58

percent] report their peers smoke regular manufactured cigars than their urban counterparts [47

percent].19




                                                    )))))))))))
                                                         7
Although teens typically smoke cheaper cigars, some teens in our focus groups occasionally
purchase more expensive cigars for special occasions. In fact, 20 teens said they had spent $10 or
more for a cigar, with one teen admitting he had spent $55 for a single cigar.

  “it has a nice taste, it’s a mild taste....doesn’t taste
  too strong,” and “they smell good.”                               Types of cigars mentioned by teens which
                                                                    were more popular include sweetened cigars,
Typical comment about sweetened cigars & pipe tobacco cigars
                                                                    cigars filled with pipe tobacco, and blunted

cigars. Specific popular brands often                             “...Our Sweets business [referring to the sweetened
mentioned by teens were Swisher Sweets,                           cigar products] has been a growth business since we
Black and Mild, and Phillie Blunts. A cigar’s                     first got into it in 1958. Sweets products are a niche
flavor and scent seem to influence what type                      that has a different taste from our mainline cigars
of cigars teens smoke, as well as its price.                      and they seem to appeal more to first-time cigar
                                                                  smokers. They appeal particularly strong in the 21-
                                                                  to-35 group. So it’s a real sub-growth segment
                                                                  within the cigar business.”
                                                                Timothy Mann, Swisher President



The Level of Cigar Smoking Among Teens In Our Focus Groups Varies Greatly, With
Urban Teens Reporting More Frequent Use.

Most teens smoke cigars on the weekends, however, urban teens report use during weekdays.

Although cigar smoking among teens is widespread, the frequency of use varies between the
occasional user to the more frequent user. Similar patterns of cigar use exist for adults especially
young adults. To provide a sense of levels of frequency of use, in our companion report (OEI-06-
98-00020) we define a “regular” cigar smoker as someone who uses cigars 3-4 times per week.
The National Cancer Institute’s monograph, Cigars: Health Effects and Trends, Smoking and
Tobacco Control, does not formally define “regular cigar use,”however our definition fits into this
same common definition which appears through out the monograph.According to a 1986 study,
66 percent of 18-24 year old current cigar smokers used cigars less than once a week, compared
to the average of 52 percent for all ages.20 Additionally, young adults were more likely [33 vs. 18
percent] to smoke cigars at least once a week compared to the norm and were the least likely to
smoke cigars once a day [2 vs. 30 percent].21 Given that our data was collected after the recent
increase in popularity of cigar smoking, we anticipated more frequent cigar use among teens in
our focus groups than the 1986 study reported.

We found cigar use among our surveyed teens to be extremely varied, though daily or almost
daily use was higher among our surveyed teens than that of young adults surveyed in 1986. The
majority [61 percent, 101 of 166] of teens we surveyed report their peers are occasional cigar
users. Of the 61 percent of occasional cigar users, 42 percent (70 of 166) report their peers
smoke cigars two days or less a week and another 19 percent (31 of 166) report their peers
smoke cigars during special events only, such as parties or birthdays. However, 39 percent (65 of
166) of teens report their peers smoke more frequently, with 25 percent (41 of 166) of teens


                                                           )))))))))))
                                                                8
reporting their peers use cigars daily or almost daily and 14 percent (24 of 166) reporting their
peers use cigars between 3-4 days per week. This frequent teen use of cigars is of concern
because cigar smoking for some is occurring at levels approaching those of cigarette smoking.
Given the high levels of nicotine in cigars, the frequent usage levels may increase the risk of
tobacco addiction or possible switching to cigarettes.

Suburban teens were much more likely than urban teens to report cigar use among their peers
only occurred occasionally (2 or less times a week). Fifty-six percent (37 of 66) of suburban
teens surveyed said their peers smoke cigars two days or less a week compared to 33 percent (33
of 100) of urban teens. Additionally, 33 percent (22 of 66) of suburban teens report their peers
only smoke cigars during special occasions compared to 9 percent (9 of 100) of their urban
counterparts. The remaining 58 percent (58 of 100) of urban teens report cigar use at much
higher levels, with 39 percent (39 of 100) reporting their peers smoke cigars daily or almost daily
and 19 percent (19 of 100) reporting they smoke cigars at least 3-4 days per week. We found no
major differences in the frequency of cigar use reported by teens in high school compared to
junior high, possibly indicating higher levels of use are occurring among younger teens also.

Teens Typically Smoke Cigars At Parties, Frequently While Drinking Alcohol.

Teens most commonly smoke cigars in the presence of other teens in a social setting. Parties,
usually held on the weekends, are the most likely place to find teens smoking cigars. Sixty-five
percent (46 of 71) of our teens who had smoked a cigar in the past year said they usually smoke
cigars at parties, while 49 percent (35 of 71) said they smoke cigars at someone else’s home.22
Another likely place for teens to smoke cigars is at outdoor hangouts (such as parking lots,
parks), with 47 percent (33 of 71) of teens reporting such a location. Outdoor activities (such as
fishing, camping, hunting, or golfing), concerts, and/or restaurants are other locations where teens
often smoke cigars.

However, cigar smoking among teens in our focus groups does not occur exclusively in a social
setting. Forty-one percent (33 of 80) of our teens report they sometimes smoke cigars alone.
Urban teens were more likely [47 percent] to smoke alone compared to suburban teens [33
percent].23 Teens apparently do not always leave their own house to smoke cigars because 34
percent of teens (24 of 71) said they usually smoke cigars at home. Of concern, is the mixing of
cigars and alcohol by teens surveyed, since combining alcohol with tobacco dramatically increases
the user’s cancer risk.24 Fully 47 percent (36 of 77) of teens smoking cigars in the past year
report they usually smoke cigars when drinking alcohol.

“BLUNTS” FOR SMOKING MARIJUANA

Teens In Our Focus Groups Report Their Peers Use Cigars As Blunts For Smoking
Marijuana.

Blunting was reported more extensively by teens in our urban schools.

Teen cigar use often goes beyond smoking cigars in the typical manner. A practice called blunting


                                          )))))))))))
                                               9
has become quite popular. When blunting, the

user cuts open or unrolls the cigar and replaces all      “You crack them down the middle, you dump

or most of the tobacco filler with marijuana or           the tobacco out, fill it up with weed and roll it

other substances. The Office of National Drug             back up.”

Control Policy cites sources in Texas, California,      Urban teen

and Georgia who report that young users combine

marijuana with a variety of substances such as crack, PCP or heroin and roll it into “blunts.” 

Though none of the teens in our focus groups explicitly stated what other substances, besides

marijuana, they or their peers use in blunts, a few alluded to “other things” which can be added,

indicating that marijuana is not the exclusive additive. To ensure confidentially and encourage

openness, we did not directly ask teens in our focus groups if they personally use cigars as blunts

for smoking marijuana. However, teens reported that the practice of blunting is common in their

schools. 


Of the teens who participated in our focus groups, 73 percent (123 of 169) know people about

their age who use cigars as blunts for smoking marijuana. Only 17 percent (28 of 169) report

none of their peers blunt.25 Familiarity with blunting increases dramatically in urban schools. 

Eighty-two percent (84 of 102) of urban teens admit knowing someone about their age who uses

cigars as blunts, compared to 58 percent (39 of 67) of suburban teens.


Though common at parties on the weekends, urban teens report blunting often occurs everyday.

According to teens in our focus groups,               “...on a regular day after school, but at parties they
smoking cigars in a party environment, while          get more because they gather up and get more
using alcohol and/or as blunts filled with            (marijuana).”
marijuana is fairly common. Urban teens            Junior high, urban teen speaking about when other teens smoke blunts.
report blunting occurs sometimes among their
peers on a daily basis, but parties are a more likely place to see the most extensive use.

Urban teens not only report blunting is more extensive among their peers, but that it is also done
more frequently. Of the teens reporting their peers use cigars as blunts, 72 percent (52 of 72) of
urban teens report this is done very often or always by their peers compared to only 29 percent (7
                                                       of 24) of their suburban counterparts. Urban
  “They smoke it [blunts] in the car, outside, inside,
                                                       teens are more likely to report blunting occurs
  walking from school, walking to school.”             among their peers everyday, while suburban
                                                       teens report such use mostly on the weekends
Urban teen on blunting
                                                       and usually at parties.

Confusion exists among teens over what is meant by a cigar. Is it a plain cigar or a marijuana-
filled blunt?

Based on our focus group discussions, teen

references to cigar smoking and/or blunting                  “...a lot of people who smoke cigars smoke weed, too.”

behavior are often difficult to differentiate. 

Although teens were specifically shown the                Urban teen





                                                    )))))))))))
                                                         10
different types of cigars prior to taking our survey, many (especially in urban schools) wanted us
to clarify if we were talking about plain cigars or cigars with marijuana in them. Teens report
their peers smoke both regular cigars, as well as cigars used as blunts for smoking marijuana,
especially in the urban schools.26 Thus, the two usages do not appear to be mutually exclusive.
As a result, our findings do not always explicitly delineate cigars used as blunts for smoking
marijuana. The overwhelming rationale teens give for using cigars as blunts is the larger size of
cigars compared to other alternatives. Cigars used as blunts hold a greater quantity of marijuana
or other additives than typical cigarette rolling paper, making it a desirable method for smoking
these substances. Simply due to its size, smoking a blunt filled with marijuana and/or other
substances results in a greater amount of the drug being consumed and therefore delivers a bigger,
better, and/or longer-lasting high. Teens also report that cigars used as blunts enhance the flavor
of the marijuana, burn more slowly than cigarette rolling paper, and camouflage the smell of
marijuana.

Teens prefer the cheaper brands for making blunts. Phillie Blunts and Swisher Sweets are the
most prevalent brands teens report their peers use for blunting, however, several teens also named
                                                                   Black and Mild. As mentioned earlier, the
                                                                   emergence of new blunted cigars by
  “All we need is the paper [if they sold the outer leaf,          manufacturers opens up additional avenues
  they wouldn’t need to buy the cigars]...that’s
                                                                   for future discovery by teens. A few
  paraphernalia.”
                                                                   manufacturers are now selling “roll up
Urban teen’s view of using cigars as blunts for smoking marijuana. blunts.” For example, Royal Blunts, professes
                                                                   to be the number one blunt rolling leaf in the
world, and is selling eight cognac honey dipped pre-cut ready-to-roll blunts for around $2.49. No
teens in our focus groups had seen the newer blunt rolling leaves yet, but some said such a
product would be popular, since most teens discard the inner contents of cigars anyway in order
to make a blunt. Using a blunt rolling leaf will reduce waste, cost, and the hassle of hollowing out
the cigars currently used for blunts. Future research will need to closely monitor the production
and sales of such products, especially given that they are composed of tobacco, unlike cigarette
rolling paper.

IMAGES AND PROMOTION

Though Media Portrayals Of Cigar Smoking Are Prevalent, Exactly How They Influence
Teens Remains Unclear. However, Teens In Our Focus Groups Can Easily Recall A Wide
Assortment Of Television Shows, Movies, And Famous Celebrities Associated With Cigar
Smoking.

Teens’ personal images of cigar smokers vary.

                                                    When teens in our focus groups describe their image
                                                    of a cigar smoker three common attributes emerge.27
  “Yes, anybody can smoke, but mostly men.          The most frequent image credits a cigar smoker with
  I’ve seen a lot of older men. Kind of like
  successful.”
                                                    being: rich, successful, or high-class [9 focus
                                                    groups]. The second most popular image is that of
Female student’s image of a cigar smoker


                                               )))))))))))
                                                    11
an older man [7 focus groups], often cited in conjunction with the first. These two images follow
the traditional, more stereotypical perception of a cigar smoker. However, the third most
frequently cited image by teens indicates a cigar smoker could be anyone, including themselves or
other teens [4 focus groups]. This newer image of a cigar smoker diverges from the first two,
reflecting the media’s more recent portrayal of younger men, women, and cartoon characters also
smoking cigars.

Also odd, is the gender specificity in teens’ responses. Though female focus group participants
are almost as likely to use cigars as males in our study, teen participants of both sexes often
specifically mentioned males, but not females in their description of a cigar smoker. It is possible
there is an element of denial among teens regarding their own behavior. While they can readily
provide a definition of a cigar smoker, it usually often fails to contain attributes which would
include them. Whether intentional or not, teens appear hesitant to define themselves as a cigar
smoker, despite their own use. Possibly their resistance lies in the term ‘cigar smoker’ and its
implications of a frequency of use which they don’t feel they exhibit. In their own minds, perhaps
they are the exception to the rule.

Popular sitcoms and cartoons are two types of television shows which teens recall as
showingcigar smoking.

Our focus group participants had no difficulty reporting popular television shows that portray
cigar smoking. In fact, overall, teens could recall 26 different television shows where they
remembered seeing cigar smoking.28 Such extensive recall is a testament to the widespread
portrayal of cigar smoking and reinforces the fact that teens notice such usage. The television
shows most frequently noted as showing characters smoking cigars include Seinfeld and cartoons.
Though cartoons such as the Simpsons and Beavis and Butthead were cited by our teens, they
also listed Looney Tunes cartoons (including Bugs Bunny and Yosemite Sam), Rocky and
Bullwinkle and others which are also viewed by very young children.

Teens in our focus groups readily named popular films depicting cigar smoking, as well as
famous personalities who are cigar smokers.

Overall, teens cited 45 different movies in which they remembered seeing cigar smoking.
Independence Day, a more recent film, was referenced by 10 of our focus groups as portraying
cigar smoking. Though not always, past appearances of cigars on film have sometimes been the
result of product placement, a practice which the Cigar Association of America recently
announced plans to “admonish” its members to halt.29

In addition to films, our participants were just as adept at naming entertainment personalities who
are personally associated with smoking cigars. Some of these individuals used cigars in
conjunction with one or more of the films referenced above, while others smoke cigars in their
public/personal life. In total, teens listed 25 different entertainers as recognizable cigar users.
They most frequently recalled comedian George Burns as a celebrity who smoked cigars [7 focus
groups]. Burns promoted and smoked an average of 10 El Producto brand cigars a day and lived
to 100 years old.30 Due to his long life span and consistent cigar use several teens questioned how


                                          )))))))))))
                                               12
cigars could really be that harmful. Other film entertainers frequently mentioned include:
Sylvester Stallone, Robert DeNiro, Arnold Schwarzenneger, Vanessa Williams, and Milton Berle.

Sports figures are also associated with smoking cigars by teens, especially outstanding athletes
such as Michael Jordan.

Not only can they list a lot of entertainment

personalities associated with cigar use, but     “On ESPN you always see people smoking cigars.”

teens in our focus groups also mention a

number of professional sports figures who        “...there’s some celebrities I don’t care about. But, if

                                                 I see Michael Jordan smoking on a stogie, that would
smoke them as well. Several teens said golf
                                                 influence me.”
is the sport they most commonly associate
with cigar smoking. In all, our participants   Male teens

recall 14 different sports personalities they
have seen smoking cigars. Though the list was quite diverse, Michael Jordan was the most
frequently mentioned sports figure.

Our focus groups occurred prior to Jordan and his teammates of the Chicago Bulls lighting up
cigars on national television to celebrate their sixth NBA championship in June 1998. Shortly
after this public celebration, the American Medical Association (AMA) voted to urge sports teams
and the television industry to keep tobacco products off television during and after sports events.
                                                       Historically, the use of sports figures in
                                                       tobacco advertising has occurred since the
  “...it was only after a generation of young males    1940's. In fact, by the 1940's and early
  became addicted to smokeless tobacco that

  endorsement by athletes was discontinued because of
                                                       1950's, athletes and movie celebrities

  its appeal to youth.”                                publically promoted various cigarette brands.31

                                                       In response to growing health concerns about
NIH Monograph 9 Cigars: Health Effects and Trends      cigarette smoking during the mid 1960's, the
                                                       tobacco industry adopted a voluntary
prohibition of athlete and celebrity endorsements perceived to appeal to youth. In the 1970's
similar marketing practices were applied to spit tobacco with celebrities and athletes again
recruited to promote the product in print media and on television (where cigarette advertising was
prohibited).

A similar message is being delivered by the cigar industry through claims that cigars are not

dangerous because users do not usually inhale them. Like their other tobacco product

predecessors, cigars are currently being

promoted by celebrities and sports icons. 

Whether they are intentional spokespeople or        “Athletes are once again endorsing cigar use

merely visible extensions of popular culture,       including such prominent super stars as Wayne

                                                    Gretzky.”

sports figures are sending strong messages to
the public and teens about “healthy,              NIH Monograph 9 Cigars: Health Effects and Trends

successful” people enjoying cigars. A July

1998 issue of Sports Illustrated features former Chicago Bears’ and current New Orleans Saints’

head coach Mike Ditka smoking a cigar on the front cover. Titled “Holy Smoke!,” the article



                                             )))))))))))
                                                  13
highlights his new ‘bad boy’ turned good image as a model for success.

                                                            The article describes him chewing on the
  “no cussing, no booze, no negative thoughts, no           tip of a “Cuban” cigar at one point, while
  unhealthy foods, no temper tantrums, no missing Mass,     another photo shows him lighting a cigar
  no unnecessary gabbing to the press, no more than three   for his wife. The potential influence that
  cigars a day, [and] no gambling.”                         cigar smoking sports personalities have
                                                            over youth must be addressed.
Mike Ditka’s new self-improvement campaign



Teens associate various rap/hip hop vocal artists with cigar smoking and blunting.

The other area mentioned by teens as having a high number of recognizable cigar users was the
music industry. Among famous cigar users they could enumerate, focus group participants named
a total of 11 different rap/hip hop artists. Those most frequently mentioned were Puff Daddy and
Master P, both well known rap/hip-hop vocal artists. Unlike the spheres of television, film, and
sports, these elements of the music industry
have been fairly forthright in their
promotion of not just cigars, but their use        “I like to smoke weed, but gettin’ high just to get
                                                   high isn’t beneficial...sometimes when I smoke a
as blunts. Many artists appear on album            blunt, I’ll just want to relax, but other times weed
covers and in videos with what can be              enhances the creative process. I use the stimulation
perceived as the trappings of success: gold        to my advantage.”
jewelry, attractive women, expensive cars,
                                                 A popular hip-hop artist
and cigars. Yet, their lyrics clarify that
these are not just plain cigars, but blunts.

Blunting references permeate the rap/hip-hop music, and are even celebrated by some artists as an
important element in the creative process. Even songs with titles like, Fire It Up, Budsmokers
Only, and Ghetto Dope have made it into the musical mainstream patronized by many young
people. Within our focus groups, most teens believe cigars used by these performers are used as
blunts. Even in magazine promotional pictures of these musicians which may have used plain
cigars as photography props, students were convinced they were holding blunts. For example, the
May 1998 cover of Vibe magazine features rapper/hip-hop success Master P with a cigar in his
mouth. After viewing this image, students in one of our focus groups assumed it was a blunt
because, “...that’s all he talk[s] about.” This facet of the music industry is hitting youth with
strong images of cigars being used as drug delivery devices. Through the lyrics and lifestyles of
the artists, blunting is portrayed, not only as a symbol of successful living, but also as a necessary
element for daily life. Though fans prone to emulation may not be able to afford the cars or
jewelry, most can somehow obtain a blunt and imitate their icons in that respect.

In an attempt to combat these influences, some states are trying to send positive messages via the
same medium. As noted previously, the state of Massachusetts has recently released an anti-cigar
campaign produced in the rap/hip-hop style. Under the guise of a music video, the piece conveys
the message that teens are being manipulated by the cigar industry to use their products. The
intent is that painting teens as victims of a selfish enterprise will cause them to rethink and,


                                              )))))))))))
                                                   14
hopefully, discontinue their cigar use.

Teens observe cigar advertising in magazines, on billboards, and on novelty apparel.

Teens in our focus groups were able to recall
                                                     “The renaissance of the cigar business is due to the
various types of cigar advertisement, but not        impact of Cigar Aficionado magazine, which has
all ads highlighted a specific brand of cigars.      helped to bring cigars more into fashion...The cigar
Sixty-three percent (140 of 222) of teens            has always been a symbol of success.”
recall seeing cigar advertising, with most
                                                   Swisher President Timothy Mann in a 1995 interview with the U.S.
reporting seeing such ads in magazines [68         Distribution Journal
percent] and/or on billboards [57 percent].32
Television [40 percent] and newspaper ads [36 percent] were two other places where teens
remembered seeing cigars promoted.33 In many cases, they mentioned seeing cigars advertised
generically, without any reference to a particular brand, such as a billboard advertising a tobacco
or cigar shop. We assume this is true for many of the television and newspaper ads teens have
seen. Nonetheless, they specifically mentioned speciality cigar magazines like Cigar Aficionado
and were able to recall many of the famous actors they had seen on the cover. Teens also said
sports magazines include cigar advertisements, with one teen reporting his High School Football
Weekly magazine included such ads. His comment was “...that’s kind of weird cause it’s like high
school guys in it.”

                                                       A number of teens also mentioned seeing
  “...like on spring break when we went to Florida
  there were a bunch of shirts there with cigars on    cigars advertised on t-shirts and hats.
  them.”                                               Although much of the merchandise was not
                                                       brand specific, teens mentioned seeing
 Junior high female teen
                                                       Phillie Blunts advertised on clothing items.
                                                       Teens also identified one teen-oriented
speciality shop found at many malls nationally that sell cigar t-shirts. We personally observed
several cigar t-shirts during our field work, such as a cigar smoking Betty Boop t-shirt.

Thanks to other manufacturers capitalizing on the cigar craze, teens and adults can purchase cigar
desk accessories, such as cigar picture frames, notepad holders, and pens. We also found one
tobacco shop in a popular strip in Alexandria, Virginia proudly displaying a talking cigar called
“Mr. Smoke.”The Big Brown Public Toy Company features this stuffed toy as a Museum Quality
Collector’s edition. Though it retails for $39.95, the company openly promotes that “kids
love’m!” and “finally a character that you and the kids can agree on.” In all likelihood this toy
will not become the hottest new Christmas sensation for kids, but it does deliver a message to kids
and adults that smoking cigars is socially acceptable. It is also unlikely that we will ever see a
cigarette version of this toy. No teens in our focus groups had ever seen “Mr Smoke,” but they
reacted very positively to the toy when we showed it to them. One teen said “[the toy is]
glorifying a blunt as a kid product.”

Overall, teens report that cigar advertising is not as widespread as cigarette advertising.
However, cigars are being embraced by the media and have become the socially acceptable
tobacco choice. Perhaps, as a result, cigars have not needed the same extent of promotion as


                                                )))))))))))
                                                     15
other tobacco products. With the number of low-cost cigar competitors increasing, we can
expect to see more product differentiation and brand name marketing. This is apparent with the
addition of larger free-standing merchandising displays being used by brands like Swisher Sweets.
Additionally, as competition from less known brands continues to increase, so will the desire for
market share. We are concerned that such a trend will only draw more teens into experimenting
with and using cigars. The addition of new cigar product lines and advertising, especially of the
blunted and sweetened cigars so popular among teens, should be monitored.

Also, of concern is the use of the Internet and mail-order catalogs to further advertise cigars.
Although very few teens report using either of these resources to access cigars, we have seen
creative Internet sites that are using mass distribution lists to advertise their on-line cigar
companies to unsuspecting users. The only disclaimer found on some of these messages is that
“only those 18 years and over” should read it.

SOCIAL ACCEPTABILITY

Smoking Cigars Is More Socially Acceptable Among Teens And Adults Than Smoking
Cigarettes Or Using Spit Tobacco.

Cigars have been spared the intensity of anti-cigarette and spit tobacco campaigns launched in
recent years. They have also not faced the same degree of Federal regulation and oversight as
other tobacco products (OEI-06-98-00020). In addition, the latest National Cancer Institute
monograph reveals a surprising relationship between cigar use, income, and education. While
cigarette use decreases as income rises, cigar use actually increases. The same phenomena exists
with higher educational attainment. As education increases, cigarette usage goes down while
cigar use goes up. According to the monograph, this data raises concerns that past success in
reducing smoking among these groups may be at risk of slowing down or reversing, as former
cigarette smokers are reintroduced to nicotine through cigars. In addition, the use of cigars by
these groups corroborates and promotes “the norms created by cigar marketers that portray cigar
use as a socially acceptable, sophisticated and relatively safe behavior.”34

Parents often deliver the message that cigar smoking is acceptable but cigarette smoking is not.

The social acceptability of cigar use is sometimes conveyed to teens tacitly, but at other times
                                                     very directly. The level to which teens
                                                     observe and emulate adult behavior is
 “My parents know that I smoke cigars...but if they  unknown, but we assume that such influence
 had any idea that I smoked cigarettes, they would   is greater when coming from the adults in
 kill me.”
                                                     their own lives.
Suburban male


Fifty-five percent (94 of 171) of teens in our focus groups report having been with adults that
have allowed teens to smoke cigars. The social acceptability of teen cigar use is highest in
suburban areas. Sixty-four percent (43 of 67) of suburban teens report having been around adults
that have allowed teen cigar smoking, as contrasted with 49 percent (51 of 104) of urban teens.


                                         )))))))))))
                                              16
Some teens also report parents are more accepting of smoking cigars than cigarettes, possibly due
to the belief that cigars are relatively safer than other tobacco products. A few teens even admit
they smoke cigars in front of their parents, or even with them at times.

Teens Report Their Peers Are Most Influenced By Other Friends Using Cigars, But Say
They, Personally, Are Somewhat More Influenced By The Relaxing Effect Of Cigars.

Though teens in our focus groups can recall images of cigar smoking in various aspects of
contemporary culture, their more subtle influence was not mentioned frequently by teens as a
reason why they or their peers smoke cigars. However, 41 teens did report their peers smoke
cigars because it is “trendy and popular,” but only 10 teens surveyed acknowledge this as a reason
why they personally smoke cigars.

Ninety-six teens report that other friends smoking cigars is one of the greatest influences on their
peers, and also an important reason why they personally use them (see Table 2). However, the
top influence noted by teens who smoke cigars is the relaxing effect cigars have on them. This
emerged from both our survey results as well as the focus group discussions. Teens say cigar
smokers are more casual or relaxed than cigarette smokers. Perhaps the high nicotine content in
cigars helps explain why teens find them so relaxing. It could also be that teens are thinking of
marijuana-filled blunts instead of plain cigars.

Teens in our focus groups also frequently mentioned curiosity as an influence on why they and
their peers smoke cigars. Unlike cigarettes, the taste and aroma of cigars vary greatly, allowing
teens a number of opportunities to experiment with a wide assortment of cigars before deciding
whether or not cigars are for them. For example, if they do not enjoy a more basic cigar, they can
try a variety of cigars with sweetened flavors or pipe tobacco cigars with pleasant aromas. Quite
a few teens list taste as a key influence on their peers and themselves to smoke cigars. Some also
say their peers are smoking cigars because they think they are safer than cigarettes or spit
tobacco. However, relatively few teens say they personally are influenced by this belief.

                             Table 2: Top Influences On Teens To Smoke Cigars

                                     Why their peers smoke cigars    Why they personally smoke cigars

 Friends use                                   96 teens                          35 teens

 Relaxing                                      69 teens                          41 teens

 Curiosity                                     53 teens                          35 teens

 Taste                                         42 teens                          35 teens

 Trendy and popular                            41 teens                          10 teens

 Believe cigars are safer than                 28 teens                          12 teens
 cigarettes or spit tobacco

 Popular entertainers or                       18 teens                          0 teens
 celebrities use


                                             )))))))))))
                                                  17
ACCESS AND AVAILABILITY

Over Two-thirds Of Teens In Our Focus Group Reported They Know Minors Who Were
Able To Buy Cigars, Usually Because Clerks Failed Either To Ask For Their Identification
Or To Closely Examine It.

The most common method used by teens to access cigars is to simply go buy them.

Over two-thirds (149 of 220) of teens in our focus groups said they know minors who were able

to buy cigars. Urban teens report an even higher frequency of cigar purchases among minors,

with 80 percent (86 of 108) of urban teens reporting such purchases compared to 56 percent (63

of 112) of suburban teens. Of the teens who knew minors who have purchased cigars, 82 percent

(121 of 147) said it was fairly easy [42 percent, 62 of 147] or very easy [40 percent, 59 of 147]

for them to buy them. Only 12 percent (17 of 147) of teens report it is fairly difficult or very

difficult for minors to purchase cigars, while 6 percent (9 of 147) did not know the difficulty

minors have in purchasing cigars. 


Teens also told us they purchase cigars at

“minor friendly” establishments. Such                  “Buying cigars is easier...I was buying snuff and

establishments allow minors to purchase cigars         Swisher Sweets before I was buying cigarettes.”

because either clerks do not always ask for          Suburban teen

identification or do not closely examine teens’

identification to verify their age or the authenticity of the identification. Only 32 percent (70 of

218) of teens surveyed in our focus groups report minors are always or very often asked by clerks

for identification prior to purchasing cigars, while 24 percent (53 of 218) report this only occurs

about half the time. Another 30 percent (66 of 218) of teens said clerks requiring identification

for cigar purchases rarely or never occurs. Urban teens are more likely to purchase their own

cigars than suburban teens. Forty-five percent (47 of 105) of teens in our urban focus groups

report that identification is rarely or never asked for by clerks, compared to only 17 percent (19 of

113) of their suburban counterparts. 


The ease with which minors are able to access cigars is not surprising given the limited State

enforcement of tobacco laws and regulations, as applied to cigars. A 1998 companion OIG report

(OEI-06-98-00020) found that, although all States and the District of Columbia have tobacco

laws broad enough to encompass cigars, States do not evenly enforce these laws and regulations. 

States also lack a general awareness of the extent of cigar sales to minors, the ease with which

minors can purchase cigars, and the degree to which minors’ use of cigars is a problem in their

State. 


Teens typically buy cigars at gas stations or convenience stores, but many get cigars by having
older people or friends buy for them.

Though teens typically purchase cigars at a variety of places, the most commonly mentioned
places include gas stations, convenience stores, supermarkets, and drug stores. Sixty-nine percent
(148 of 214) of teens in our focus groups said their peers purchase cigars at gas stations or


                                           )))))))))))
                                                18
convenience stores, while 49 percent (104 of 214) report teens make such purchases at

supermarkets or drug stores. Only 21 percent (45 of 214) of teens mentioned tobacco shops as a

likely place their peers obtain cigars. 


Not all teens purchase their own cigars. Fifty

                                                    “My dad actually gives them [cigars] to me.”

percent (106 of 214) report their peers get
cigars from their friends, some of whom may       Male cigar smoker

be legally old enough to purchase cigars. 

Surprisingly, 26 percent (56 of 214) of teens report cigars are obtained from parents or other

family members. Though not all respondents indicated that family members knew they obtained

cigars through them, some clearly did, again reinforcing the social acceptability of cigar smoking. 

Other teens report their peers will proposition older people outside of stores to purchase cigars

for them. Many teens specifically classified these adults as “junkies” or “street people” they

encounter near the stores and pay a nominal fee for their assistance. This was mentioned more

frequently in urban areas, where teens have easier access to more adults hanging out near stores.


Some stores facilitate easy access by placing cigars within reach, making it possible for some
teens to steal them.

Teens in our focus groups did not report a consistent merchandising setup for selling cigars
among retailers. Forty-four percent (97 of 219) of teens said cigars are displayed behind the
counter, while 30 percent (66 of 219) of teens said cigars are displayed both behind the counter
and within reach. Another 15 percent (32 of 219) of teens said cigars are always placed within
reach. We have seen stores that display cigars right next to children’s school supplies, such as
crayons. Prior to a newly passed law in Texas, cigars were prominently displayed next to candy in
most grocery stores. Though many problems
are obvious with this sort of convenient access
to cigars, one of the most troubling problems       “I work at ....[a discount drug store]. One thing I
expressed by teens is that this makes cigars        noticed ...the cigars...was [were] on aisle six but all
easy to steal. Twenty-seven percent (58 of          the cigarettes were behind the counter...I thought
218) of teens in our focus groups know other        that was weird but I know we had a lot of ‘five-finger
peers who steal cigars, most commonly from          discount types’ - these people come in, you know,
             35                                     and get them and walk out...”
stores (41). Teens also report their peers
steal cigars from family members (18) or          Suburban college student
friends (11).

PERCEPTIONS OF HEALTH RISKS

Though Teens In Our Focus Groups Appear To Be Generally Aware Of The Adverse
Effects Of Tobacco Use, They Tend To Lack Specific Knowledge Of The Health Risks Of
Cigars.

Sixty-five percent (141 of 218) of teens in our focus groups report having heard or read about the
health effects of smoking cigars. Yet, teens usually cannot recall the source of their information,
nor is it specific to cigars. In general, it appears teens in our focus groups have heard very little


                                            )))))))))))
                                                 19
about the health effects of cigar use, but draw general conclusions about cigar-related health risks
from information learned about other forms of tobacco use. They rationalize that cigars, like
cigarettes, are generally harmful to one’s health and/or can cause cancer, but are fairly evenly
divided in their beliefs about the comparative risks of cigars versus other forms of tobacco. When
asked about any cigar health effects, without any prompting, a total of 50 teens said that cigars
cause some type of cancer. In addition, another 53 teens enumerate a variety of maladies
attributed to cigar smoking. Of those, lung disease, death, and blackened lungs are most
frequently mentioned.

We asked teens whether they agree or disagree that cigar smoking can cause three specific types
of cancer. Though there are numerous disease risks associated with cigar smoking, we focused
on both lung and mouth cancer because of their strong link to cigar use. However, to test
response reliability, we also asked teens whether they believe cigar smoking is linked to stomach
cancer, a linkage without supporting scientific evidence. Interestingly, the greatest disease risk
for cigar smokers, mouth cancer, is not most frequently identified by teens. Rather, 88 percent
(194 of 221) of teens agree or strongly agree that cigar smoking can cause lung cancer, but only
71 percent (155 of 220) of teens agree or strongly agree that cigar smoking causes mouth cancer.
What seems clear about teens’ assessment of the disease risks of cigar smoking is that they are not
receiving sufficiently explicit information to clearly articulate the true health hazards of cigars.
This is particularly apparent when 51 percent (112 of 220) agree or strongly agree that cigar
smoking causes stomach cancer.

Additionally, although some teens acknowledge the possibility of fatal consequences from cigar
use, most seriously underestimate the real-life probabilities of harm. For example, most teens
think car accidents, rather than tobacco use, are the leading cause of preventable death in
America. In actuality, tobacco use is the most preventable cause of death in our society.36

In all, 42 percent (92 of 219) of teens think cigars pose the same health risks as cigarettes, but 25
percent (55 of 219) believe cigar smoking is less risky or not risky at all. Despite their inability to
demonstrate explicit knowledge of the effects of cigar use, the remaining one-third (72 of 219) of
teens believe cigars to be more risky or much more risky than cigarettes. We expected fewer
teens to judge cigars as more risky, especially since popular opinion holds cigars are relatively
safer than cigarettes because most adult users do not typically inhale cigar smoke. Perhaps some
teens assumed cigars are riskier than cigarettes because cigars were the focus of our study. Thus,
they may have selected what they deemed as the “correct” answer, rather than one based on their
own knowledge. Otherwise, it is hard to imagine that such high numbers of teens would be
indulging in a practice they consider so dangerous. The extent to which these teens truly believe
that cigars are as harmful or more harmful than cigarettes is unknown and requires further study.

Nevertheless, Most Of Our Teens Believe Smoking Cigars Is Bad For A Person’s Health
And That The Potential Harm Increases With More Frequent Use.

Regardless of how teens view the risks of cigar smoking as compared to cigarettes, teens are not
naive enough to believe smoking cigars has no health effects. Ninety-four percent (208 of 222) of
teens report they believe smoking cigars is bad for a person’s health. Several teens note that,


                                           )))))))))))
                                                20
since tobacco in general is harmful, cigars have to be somewhat dangerous, but they do not know
specifically how dangerous. Teens also view the risks of daily cigar use as particularly harmful.

Seventy-one percent (158 of 222) of teens conclude that smoking one cigar a day is very harmful
(see Table 3). However, the perceived risks of cigar smoking drastically diminish as frequency of
use becomes more occasional. Only 30 percent (66 of 222) of teens think smoking one cigar a
week is very harmful, while 51 percent (114 of 222) believe it is somewhat harmful and 11
percent (24 of 222) believe it is not harmful. Far fewer teens are convinced that smoking one
cigar a month is harmful. In fact, only 15 percent (33 of 221) say this level of cigar smoking is
very harmful, 54 percent (120 of 221) say it is somewhat harmful, and another 23 percent (51 of
221) of teens say smoking one cigar a month is not harmful.

                     Table 3: Teens’ Perception of Health Risk of Cigar Smoking
                                      at Different Usage Levels

                                    Smoking one cigar     Smoking one cigar       Smoking one cigar
                                         a day                 a week                 a month

 Very Harmful                              71 %                  30 %                   15%
                                           (158)                 (66)                   (33)

 Somewhat Harmful                          19 %                 51 %                    54 %
                                           (41)                 (114)                   (120)

 Not Harmful                                4%                   11 %                   23 %
                                            (9)                  (24)                   (51)

 Don’t Know                                 6%                   8%                     8%
                                            (14)                 (18)                   (17)



Our Teens Who Have Tried Cigars Rate Their Adverse Health Effects Lower Than Teens
Who Have Never Smoked Cigars.

Teen assessments of the adverse health effects of cigar smoking varied by whether or not they
have ever tried cigars. Of teens participating in our focus groups, 54 percent (122 of 227) have
tried a cigar in their lifetime, while 46 percent (105 of 227) teens have never tried them. We
found those who have tried cigars rate the health risks lower than those who have not. In fact,
nearly all (98 percent, 101 of 103) of teens who never have smoked a cigar said they believe
smoking cigars is bad for your health, compared to 90 percent (105 of 117) of teens who have
tried cigars.37

Teens with cigar experience are more likely to rate smoking one cigar a month as not harmful [28
percent] than teens with no cigar experience [18 percent].38 Similarly, assessing the risks of
smoking one cigar a week, 26 percent (30 of 117) of teens with cigar experience say it is very
harmful compared to 34 percent (35 of 103) of those without such experience. As usage levels
increase to smoking one cigar a day, 79 percent (81 of 103) of teens without cigar experience rate
such frequent use as very harmful compared to only 65 percent (76 of 117) of teens who have


                                         )))))))))))
                                              21
smoked cigars. Teens who have tried cigars are also more likely to say that, compared to
cigarettes, cigars are less risky. Thirty percent (35 of 116) of teen cigar users made such a
statement, compared to only 10 percent (10 of 101) of teens with no cigar experience. Cigar
smoking teens expressed a comparable view when comparing the risk of cigars to spit tobacco
products. Twenty-seven percent (31 of 117) of teens with cigar experience said cigars are less
risky than spit tobacco, compared to 20 percent (20 of 101) of teens with no cigar exposure.
Teens with cigar experience are also somewhat less likely [83 vs. 93 percent] to agree or strongly
agree that cigar smoking can cause lung cancer than teens with no cigar experience.39

While A Majority Of Teens In Our Focus Groups Think Regular Cigar Smoking Is
Addictive, Many Are Uncertain.

Though 59 percent (129 of 220) of teens report regular cigar smoking is very addictive, another
23 percent (51 of 220) report it is only somewhat addictive, and 4 percent (9 of 220) said it is not
addictive. Fourteen percent (31 of 220) of teens did not know about the addictive effects of
regular cigar smoking. It should come as no surprise that teens are unclear about the addictive
effects of cigar smoking, given the limited amount of scientific evidence available and the lack of
specific information delivered to teens about the health effects of smoking cigars.

Much of the dispute about the addictive nature of cigars hinges around how the nicotine is
delivered. Cigars, unlike other tobacco products are capable of introducing nicotine into the body
via multiple pathways. Since the pH of cigar smoke is alkaline enough to allow efficient nicotine
absorption through the oral and nasal mucosa, those who don’t inhale still receive doses of the
drug.40 Thus, those who hold the smoke in their mouth prior to exhaling, or those who merely
hold an unlit cigar in their mouth, are still receiving nicotine (similar to spit tobacco). When
inhaled, cigar smoke is as readily absorbed in the lungs as cigarette smoke. The latest NCI Cigar
Monograph states “cigar smoke may be inhaled, producing the same virtually instantaneous
effects of nicotine delivery produced by cigarette smoking, or cigar smoke may be held in the
nose and mouth providing a somewhat slower rate of nicotine absorption as occurs with
smokeless tobacco products.” As a result, even cigar smokers who purposely don’t inhale as a
preventive measure, aren’t entirely avoiding the potential pitfalls of nicotine use.

The broad assumption is cigar smokers have lower rates of inhalation compared to cigarette
smokers, use less frequently, and begin use in adulthood. According to the Monograph, this
combination of factors may lessen the addictive nature of cigars. However, it also warns the “the
current trend of adolescent cigar use generates a concern that prior low adult rates of
developing dependence may not apply to cigar use begun during adolescence.”

Teens Report They And Their Peers Always Inhale When Smoking Blunted Cigars And
Sometimes Also Inhale When Smoking Unaltered Cigars.

The addictive potential of cigars is a concern, given that 64 percent (52 of 81) of teens using
cigars in our focus groups said they have inhaled when smoking cigars. This alarming number of
teens admitting they inhale when smoking cigars, suggests the real number of inhalers is probably
even higher. The monograph highlights that cigar smokers are often unaware of the extent to


                                          )))))))))))
                                               22
which they actually inhale, even more so if they are, or were, cigarette users. Previous cigarette
users who now use cigars demonstrate higher rates of inhalation of cigar smoke compared to
cigar smokers who never smoked cigarettes. In addition, previous cigarette users also
demonstrate higher rates of most diseases resulting from smoking than cigar smokers who never
used cigarettes in the past.41

Although we did not directly ask teens whether or not they personally use cigars as blunts for
smoking marijuana, many of them shared that those who blunt always inhale to get high.
Otherwise, as many stated in their responses, “what would be the point?” Yet, many teens in our
focus groups seem unaware of any adverse effects of inhaling blunted cigars, aside from the
effects of using marijuana. Numerous teens believe they are removing the harmful effects of the
cigar when they hollow cigars out, because they assume what is left is “only brown paper.”




                                         )))))))))))
                                              23
                               CONCLUSIONS

The findings of this report, however exploratory, provide important information about teen cigar
and blunt use. Information obtained through our focus groups leads to the conclusion that more
research is needed to better understand teen cigar use. Though this study was primarily designed
to inform future research and survey work, it provides important new information on teen cigar
and blunt use and reinforces in our minds the need for an action plan to address this problem.

A Research Agenda Is Needed On The Following Aspects Of Teen Cigar and Blunt Use:

Types and Brands Used - Based on the confusion teens in our focus groups had over what is
meant by a cigar, we advise that all surveys of youth and young adults explicitly ask questions
about plain cigar use, along with questions about blunt use. Currently, national prevalence
surveys do not ask questions about blunting. Without this information, assessments of cigar use
among teens and young adults might underestimate the number purchasing and using cigars.
Additionally, information should be collected about the type and brands of cigars teens are
smoking as plain cigars and as blunts, including cigar wrappers used to smoke marijuana.

Extent of Cigar Use - Tracking cigar use patterns over time requires more trend data. Questions
are currently being added to a number of national prevalence surveys; however, the information is
not always standardized. Information should also be collected to explore differences in teens’
demographic characteristics, especially geographic and urban/suburban/rural differences.

Patterns of Cigar Use - Though not all teens smoke cigars on a frequent basis, teens report some
of their peers smoke cigars and blunts at very high levels. Very specific information should also
be collected about how often and where teens smoke blunts and cigars.

Influences on Cigar Use - In order to better understand why teens are experimenting with and
using cigars, additional questions should be included on surveys asking teens why they enjoy
smoking cigars, along with questions about the extent of cigar use among their peers and closest
friends. Such research can help guide future intervention and prevention programs.

Ease of Cigar Purchase - Teens in our focus groups can easily buy cigars, most commonly at
gas stations and convenience stores. Research is needed on the ease of purchase, extensiveness of
illegal cigar sales to minors and the potential of enhanced enforcement efforts to curtail cigar sales
to minors.

Action Steps to Discourage Cigar Use and Develop Research Agenda

In our companion report, Youth Use of Cigars: Federal, State Regulation and Enforcement
(OEI-06-98-00020), we recommend that the Department, under the leadership of the Assistant
Secretary for Health develop an action plan to address the public health risks posed by cigars,
particulary access by youth. As a first step, we recommend an initiative to inform the public
through a public awareness and educational effort appropriate for cigars. This effort could also


                                          )))))))))))
                                               24
include pursuing a collaborative effort with the Federal Trade Commission and Congress to
initiate a Surgeon General’s Warning Label for cigars. As a second step, the Department should
address the need for additional research on cigars including patterns and prevalence of use, youth
access and ease of purchase, health effects, addictive potential, use of cigars to smoke marijuana,
and an assessment of the adequacy of the Department’s data collection and survey capacity for
monitoring cigar use trends.




                                         )))))))))))
                                              25
                                 ENDNOTES

1.	   U.S. Department of Health and Human Services, Public Health Service, Centers for
      Disease Control and Prevention. “Cigar Smoking Among Teenagers - United States,
      Massachusetts, and New York, 1996.” Morbidity and Mortality Weekly Report
      (MMWR). May 23, 1997. 46: Online. Internet.

2.	   U.S. Department of Health and Human Services, Public Health Service, National Institutes
      of Health, National Cancer Institute. Cigars: Health Effects and Trends, Smoking and
      Tobacco Control. Monograph Number 9, April 1998.

3.	   News Release. California Department of Health Services. “California Launches Public
      Awareness Campaign Targeting the Increase in Cigar Use,” March 30th, 1998.

4.	   U.S. Department of Health and Human Services, Public Health Service, Centers for
      Disease Control and Prevention. “Tobacco Use Among High School Students -- United
      States, 1997.” Morbidity and Mortality Weekly Report (MMWR). April 3, 1998. 47: 12.

5.	   Data from SAMHSA’s 1997 National Household Survey on Drug Abuse (NHSDA)
      shows current past month cigar use for 12-17 year olds to be only 5 percent. One of the
      biggest discrepancies in the YRBS data and the NHSDA data is the methodology used to
      collect the data. The 1997 YRBS data is based on a representative sample of 16,262
      students in grades 9-12 in the 50 States and the District of Columbia. The 1997 NHSDA
      data is based on a household survey of 24,505 respondents including 7,844 young people
      aged 12-17. The NHSDA cigar data is obtained through a self-administered questionnaire
      taken by the child. While every effort is made to afford the child privacy during the
      interview, the child’s parent may or may not be in the room at the time. Additionally, the
      NHSDA cigar questions were located in a “non-core” section of the 1997 questionnaire
      that also inquired about needle use and other hard core drug use. The YRBS cigar
      questions are located in a separate section about tobacco use. These two differences
      could help explain some of the discrepancies in the two sources of data. Beginning in
      1999, the NHSDA questionnaire will be administered using a computer assisted
      technology. Also in 1999, the NHSDA will include cigar questions in a separate section
      with other tobacco use.

6.	   Of our participants that weren’t technically teens, three students were 11 years of age and
      twelve were 12 years of age. Of the 230 surveyed teens, 32 were 18 years of age and
      eight were 19 years of age.

7.	   U.S. Department of Health and Human Services, Public Health Service, Centers for
      Disease Control and Prevention. May 23, 1997. 46: Online. Internet.

8.	   An additional 24 percent (32 of 131) of teens surveyed did not know how many of their
      peers have smoked a cigar in the past 30 days.



                                        )))))))))))
                                             26
9.	    Although good prevalence trend data for adults and teens is currently lacking, cigar
       consumption in the United States has increased nearly 50 percent between 1993 and 1997.


10.	   Seventeen percent (28 of 165) of teens said they didn’t know about changes in cigar use
       among their peers.

11.	   For this question, 62 percent represents 70 of 113 urban high school teens who have
       personally smoked a cigar compared to 46 percent or 52 of 113 suburban teens.

12.	   U.S. Department of Health and Human Services, Public Health Service, Centers for
       Disease Control and Prevention. May 23, 1997. 46: Online. Internet.

13.	   U.S. Department of Health and Human Services, Public Health Service, Centers for
       Disease Control and Prevention. “Tobacco Use Among High School Students -- United
       States, 1997.” Morbidity and Mortality Weekly Report (MMWR). April 3, 1998. 47: 12.

14.	   U.S. Department of Health and Human Services, Substance Abuse and Mental Health
       Administration, Preliminary results from the 1997 National Household Survey on Drug
       Abuse (NHSDA): Online. Internet

15.	   For this question, 53 percent represents 18 of 34 suburban teens who expect to be
       smoking cigars in five years and 46 percent represents 21 of 46 urban teens.

16.	   The mean age of first cigarette use for our users was 13 years old, with a modal age of 12.
       However, the mean age of first cigar use was 14.5 years old, with a modal age of 16.

17.    Nine percent (15 of 167) of teens did not know the type of cigars smoked by their peers.

18.	   For this question, 72 percent represents 61 of 85 urban high school teens and 48 percent
       represents 23 of 48 suburban teens.

19.	   For this question, 58 percent represents 28 of 48 suburban high school teens and 47
       percent represents 40 of 85 urban teens.

20.	   U.S. Department of Health and Human Services, Public Health Service, National Institutes
       of Health, National Cancer Institute. Cigars: Health Effects and Trends, Smoking and
       Tobacco Control. Monograph Number 9, April 1998.

21.	   U.S. Department of Health and Human Services, Public Health Service, National Institutes
       of Health, National Cancer Institute. Cigars: Health Effects and Trends, Smoking and
       Tobacco Control. Monograph Number 9, April 1998.

22.    Multiple response question so answers will total over 100 percent.

23.	   Forty-seven percent represents 22 of 47 urban teens who have ever smoked cigars alone
       and 33 percent represents 11 of 33 suburban teens.


                                        )))))))))))
                                             27
24.	   U.S. Department of Health and Human Services, Public Health Service, National Institutes
       of Health, National Institute on Alcohol Abuse and Alcoholism. Alcohol Alert. No. 39.
       January 1998.

25.	   Eleven percent (18 of 169) of teens did not know whether people their age use blunts for
       smoking marijuana.

26.    We did not directly ask teens if they personally use cigars as blunts for smoking marijuana.

27.	   The top responses from each focus group were analyzed to compile the three common
       attributes emerging from all groups.

28.	   We were interested in the number of television shows teens in our focus groups listed.
       However, we did not check whether or not cigar smoking actually occurred in each show
       listed by teens.

29.	   This subtle marketing approach employs the practice of paying Hollywood brokers to
       place cigars in the mouths of popular actors or appealing characters in movies or television
       sitcoms. The Washington Post, March 21, 1998. Online. Internet.

30.	   Rudman, Theo. 1995. Rudman’s Complete Guide to Cigars: How to Find, Select and
       Smoke Them. Triumph: Chicago.

31.	   U.S. Department of Health and Human Services, Public Health Service, National Institutes
       of Health, National Cancer Institute. Cigars: Health Effects and Trends, Smoking and
       Tobacco Control. Monograph Number 9, April 1998.

32.	   For this question, 68 percent represents 95 of 139 teens and 57 percent represents 79 of
       139 teens.

33.	   For this question, 40 percent represents 55 of 139 teens and 36 percent represents 50 of
       139 teens.

34.	   U.S. Department of Health and Human Services, Public Health Service, National Institutes
       of Health, National Cancer Institute. Cigars: Health Effects and Trends, Smoking and
       Tobacco Control. Monograph Number 9, April 1998.

35.	   Forty-nine percent (107 of 218) of teens report they are not aware of their peers stealing
       cigars, while another 24 percent (53 of 218) do not know whether or not their peers steal
       cigars.

36.	   Peto R, Lopez AD, Boreham J, Thun M, Heath C, Jr. 1994. Mortality from Smoking in
       Developed Countries 1950-2000. Oxford University Press: New York.

37.	   Not all teens responded to our questions on health effects, thus explaining the difference in
       the denominator of these questions.



                                         )))))))))))
                                              28
38.	   For this question, 28 percent represents 33 of 116 teens and 18 percent represents 18 of
       103 teens.

39.	   For this question, 83 percent represents 98 of 118 teens and 93 percent represents 94 of
       101 teens.

40.	   U.S. Department of Health and Human Services, Public Health Service, National Institutes
       of Health, National Cancer Institute. Cigars: Health Effects and Trends, Smoking and
       Tobacco Control. Monograph Number 9, April 1998.

41.	   U.S. Department of Health and Human Services, Public Health Service, National Institutes
       of Health, National Cancer Institute. Cigars: Health Effects and Trends, Smoking and
       Tobacco Control. Monograph Number 9, April 1998.




                                        )))))))))))
                                             29
                                      APPENDIX A

Focus Group Participants

Two basic screening criteria were used in selecting schools for our study. First, schools were
selected within DHHS regional cities to give us a broad representation of students across the
country. One additional school, located outside a DHHS city, was selected to better represent a
slightly more rural population in the Mid-West. We aimed for a mix of both urban and suburban
schools, and students with different socioeconomic backgrounds. Though our focus was mainly
on high school students, four junior high schools and one college were included to obtain the
perspectives and experiences of other age groups. Second, we only included schools willing for
us to conduct focus groups on school property either before, during, or after school. In most
cases, a teacher, coach, or school principal selected students or classes that he/she felt would best
represent the demographics of his/her school. In some cases, students were recruited, but none
were required to participate in our focus groups. Cigar users were not over-sampled. Only one
focus group was conducted outside a school setting with high school students. This group of five
students was selected because they were known to be heavier, premium cigar users. Although the
information from these users added flavor, their information did not bias our results.

Out of the 18 separate focus groups, a total of 230 participants completed our surveys. Basic
demographic information was provided by nearly all participants (see Table 1).

Urban/Suburban School Status

Schools are classified as urban or suburban based on whether the school is located within the main
DHHS regional city, or in a suburban city outside city limits. Seven schools participating in our
focus groups are classified as urban. In one case a school was classified as urban because it was
located very near the city.In nearly all cases, urban schools are located in very populated areas and
resemble a more typical central city school, often surrounded by security fences. Eleven schools
are classified as suburban and are clearly located in areas outside of a central city. Though some
schools are located in less densely populated areas, no schools are classified as rural.

The total participant pool is fairly evenly split along urban/suburban lines. Of the 230 participants
completing our surveys, 49.6 percent (116) are from urban schools and 50.4 percent (114) are
from suburban schools. Focus groups in urban schools include a larger number of participants,
averaging around 16 students per focus group compared to an average of just over 10 students in
suburban schools.

Race

A well-balanced racial mixture emerged from our overall participant group. Focus group
participants include 48 percent (106) White students, 33 percent (73) Black students, and 20
percent (44) other races, such as Asian and Hispanic/Latino. A strong relationship exists between
race and whether teens attend an urban or suburban school. This relationship is expected based


                                          )))))))))))
                                               30
on the demographics of our study population. Eighty-eight percent (64 of 73) of Black teens in
our study are from urban schools. Only nine Black students participating in our focus groups are
from a school we classify as suburban. They also make up a large part of our total urban sample,
which includes 59 percent (64) Black teens, 26 percent (28) other races, such as Asian and
Hispanic/Latino, and 16 percent White teens (17).

The participant group contains more female urban teens (67 percent, n = 73) than male urban
teens (33 percent, n = 36). Therefore, generalizations regarding our urban teens are heavily
influenced by the responses of Black female teens.

Junior High vs. High School

Seventy-three percent (159) of our participants attend high school, while 28 percent (60) are in
junior high school. Of the 60 junior high participants, 73 percent (44) attend a suburban school.
Our single college focus group was extremely small, resulting in only four useable surveys.
Therefore, the perspectives of these participants are not included in any individual breakouts by
school status. However, their viewpoints are reflected in several cases throughout the report to
add useful, qualitative information.

                         Table 1: Characteristics of Focus Group Participants

      Demographic                                                Urban/Suburban School
     Characteristics             Overall
                                                             Urban                 Suburban

 Gender:
 Female                        55.6% (124)                67.0% ( 73)             44.7% (51)
 Male                          44.4% ( 99)                33.0% ( 36)             55.3% (63)

 Race:
 White                         47.5% (106)                15.6% ( 17)             78.1% ( 89)
 Black                         32.7% ( 73)                58.7% ( 64)               7.9% (9)
 Other                         19.7% ( 44)                25.7% ( 28)             14.0% ( 16)

 School:
 Junior High                   27.4% ( 60)                14.7% ( 16)             40.0% ( 44)
 High School                   72.6% (159)                85.3% ( 93)             60.0% ( 66)

 TOTALS                                                   49.6% (114)             50.4% (116)


Focus Group Approach

Information from prior focus group studies served as a starting point for constructing the content
and approach of our focus groups. For consistency purposes, the same moderator conducted all
focus groups using a formal, focus group script with open-ended questions. Assistant moderators
documented information from the focus groups and transcribed the recorded tapes for all focus
groups.



                                           )))))))))))
                                                31
Focus groups ranged in length from 60 - 90 minutes and usually included between 10-15
participants. The smallest focus group included five students and the largest included 17 students.
Although we intended to use only a focus group format, seven schools made arrangements for us
to talk with students during a class period. Therefore, seven of the eighteen focus groups were
classified as classroom discussions. The students all took the same self-administered survey, but
the discussions in a classroom setting were more limited due to restricted time. However, in
comparing the focus group discussions with the classroom discussions, we found both to be
equally revealing. The term ‘focus group’ will be used throughout the report and will include
information collected through both the focus groups and classroom discussions.




                                         )))))))))))
                                              32
